No. 21IN THE

Supreme Court of the United States
GROWTH ENERGY,
Petitioner,
v.
AMERICAN FUEL & PETROCHEMICAL
MANUFACTURERS, et al.,
Respondents.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I, Seth P. Waxman, a member of the
bar of this Court, certify that the accompanying Petition for a Writ of Certiorari
contains 5,955 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.1(d).
Executed on October 4, 2021.

SETH P. WAXMAN
Counsel of Record
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
seth.waxman@wilmerhale.com

